FR833282333_CARECREDIT® REWARDS™ MASTERCARD®
TC DC PDF WF3501930C
6/2021

SYNCHRONY BANK
SECTION I: RATES AND FEES TABLE
CARECREDIT® REWARDS™ MASTERCARD® ACCOUNT AGREEMENT
PRICING INFORMATION
Interest Rates and Interest Charges
Annual Percentage
Rate (APR) for Purchases

26.99%

APR for Cash Advances

26.99%

Paying Interest

Your due date is at least 23 days after the close of each billing cycle. We will not charge
you any interest on non-promotional purchases if you pay your entire balance by the due
date each month. We will begin charging interest on cash advances on the transaction
date. We will begin charging interest on promotional purchases on the purchase date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $2.00.

Fees
Transaction Fees
l

Cash Advance

Either $10 or 4% of the amount of each cash advance, whichever is greater.

l

Foreign Transaction

3% of each transaction.

Penalty Fees
l

Late Payment

Up to $40.

How We Will Calculate Your Balance: We use a method called “daily balance.” See your credit card account agreement
below for more details.

1

SECTION II: RATES, FEES AND PAYMENT INFORMATION
CARECREDIT® REWARDS™ MASTERCARD® ACCOUNT AGREEMENT
How Interest Is Calculated
Your Interest Rate

We use a daily rate to calculate the interest on the balance on your account each day. The daily rate is the
applicable APR times 1/365. Interest will be imposed in amounts or at rates not in excess of those permitted
by applicable law.
The daily rate for purchases is .07395% (APR 26.99%).
The daily rate for cash advances is .07395% (APR 26.99%).

When We Charge Interest

Purchases. We charge interest on your purchases from the date you make the purchase until you pay the
purchase in full. See exceptions below.
l

We will not charge you interest during a billing cycle on any non-promotional purchases if:
1. You had no balance at the start of the billing cycle; OR
2. You had a balance at the start of the billing cycle and you paid that balance in full by the due date in
that billing cycle.

We always charge interest on promotional purchases and their related fees from the date you make the purchase.
l

We will credit, as of the start of the billing cycle, any payment you make by the due date that we allocate to
non-promotional purchases if:
1. You had no balance at the start of the previous billing cycle; OR
2. You had a balance at the start of the previous billing cycle and you paid that balance in full by the due
date in the previous billing cycle.

Cash Advances. We charge interest on your cash advances, and their related fees, from the date you make the
transaction until you pay them in full. You cannot avoid paying interest on cash advances or their related fees.

How We Calculate Interest

We figure the interest charge on your account separately for each balance type. We do this by applying the daily
rate to the daily balance for each day in the billing cycle. A separate daily balance is calculated for the following
balance types, as applicable: purchases, cash advances and balances subject to different interest rates, plans
or special promotions. See below for how this works.
1. How to get the daily balance: We take the starting balance each day, add any new charges and fees,
and subtract any payments or credits. This gives us the daily balance.
We apply fees to balance types as follows:
(a) late payment fees are treated as new purchases;
(b) debt cancellation fees are treated as new purchases;
(c) cash advance fees are added to the cash advance balance; and
(d) foreign transaction fees are added to the purchase balance.
2. How to get the daily interest amount: We multiply each daily balance by the daily rate that applies.
3. How to get the starting balance for the next day: We add the daily interest amount in step 2 to the
daily balance from step 1.
4. How to get the interest charge for the billing cycle: We add all the daily interest amounts that were
charged during the billing cycle.
We charge a minimum of $2.00 of interest in any billing cycle in which you owe interest. Interest, as calculated
above, is added as applicable to each balance type. Minimum interest charges in excess of the calculated interest
are treated as new purchases.

2

How Fees Work
Cash Advance Fee

We will charge this fee for each cash advance you make. For ATM cash advances this fee is in addition to any
fee the ATM owner may charge you for use of the ATM.

Foreign Transaction Fee

We will charge this fee for purchases or cash advances you make in currencies other than U.S. dollars and/or in
a country other than the U.S., whether or not the transaction was in a foreign currency.
If you make a transaction with your account in a currency other than U.S. dollars, Mastercard will convert the
transaction amount into U.S. dollars using its currency conversion procedure. Under the currency conversion
procedure that Mastercard currently uses, the non-U.S. dollar transaction amount is converted into a U.S. dollar
amount by multiplying the transaction amount in the non-U.S. dollar currency by a currency conversion rate.
Mastercard’s currency conversion procedure is based on rates observed in the wholesale market or governmentmandated rates, where applicable. The currency conversion rate that Mastercard uses for a particular transaction
is the rate for the applicable currency on the date that the transaction occurred. However, in limited situations,
particularly where transaction submissions to Mastercard for processing are delayed, the currency conversion
rate that Mastercard uses may be the rate for the applicable currency on the date that the transaction is
processed.

Late Payment Fee

We will charge this fee if we do not receive the total minimum payment due on your account by 5 p.m. (ET) on
the due date. This fee is equal to:
1 $29, if you have paid your total minimum payment due by the due date in each of the prior six billing
cycles.
OR
2. $40, if you have failed to pay your total minimum payment due by the due date in any one or more of
the prior six billing cycles.
The late payment fee will not be more than the total minimum payment that was due.

Minimum Payment Calculation
Your total minimum payment is calculated as follows.
The sum of:
a. For the new balance shown on your billing statement (excluding any balance attributable to a special promotional purchase with a unique payment
calculation), the greater of:
(i) $29; or
(ii) 3.25% of the new balance shown on your billing statement; or
(iii) The sum of 1% of your new balance shown on your billing statement plus interest and late payment fees charged in the current billing
cycle; PLUS
b. Any past due amounts; PLUS
c. Any payment due in connection with a special promotional purchase with a unique payment calculation.
We round up to the next highest whole dollar in figuring your total minimum payment. Your total minimum payment will never be more than your new balance.
Special Promotional Financing Offer Information
At times, we may offer you special financing promotions for certain transactions (“special promotions”). The terms of this Agreement apply to any special
promotions. However, any special promotional terms that are different than the terms in this Agreement will be explained on promotional advertising or other
disclosures provided to you. Below is a description of certain special promotions that may be offered, in addition to reduced APR promotions with a unique
payment calculation.
l

No Interest if Paid in Full Within 6 Months

l

No Interest if Paid in Full Within 12 Months

l

No Interest if Paid in Full Within 18 Months

l

No Interest if Paid in Full Within 24 Months

For each promotion, if the promotional balance is not paid in full within the promotional
period, interest will be imposed from the date of purchase at the Purchase APR that applies
to your account when the promotional purchase is made.
At the time your account is opened, the Purchase APR is 26.99%.

When you make a qualifying purchase under one of these promotions, no interest will be assessed on the purchase if you pay promotional purchase amount
in full within the applicable promotional period. If you do not, interest will be assessed on the promotional purchase from the date of the purchase. Minimum
or fixed monthly payments are required. Regular account terms apply to non-promotional purchases and, after promotion ends, to promotional purchases.
Offers are subject to credit approval. These promotional offers may not be available at all times for all purchases. Please see any special promotion advertising
or other disclosures provided to you for the full terms of any special promotion offered.

3

SECTION III: STANDARD PROVISIONS
CARECREDIT® REWARDS™ MASTERCARD® ACCOUNT AGREEMENT
ABOUT THE CREDIT CARD ACCOUNT AGREEMENT
This Agreement. This is an Agreement between you and Synchrony Bank, 170 Election Road, Suite 125, Draper, UT 84020, for your credit card account
shown above. By opening or using your account, you agree to the terms of the entire Agreement. The entire Agreement includes the four sections of
this document and the application you submitted to us in connection with the account. These documents replace any other agreement relating to your
account that you or we made earlier or at the same time.
Parties To This Agreement. This Agreement applies to each accountholder approved on the account and each of you is responsible for paying the full
amount due, no matter which one uses the account. We may treat each of you as one accountholder and may refer to each of you as “you” or “your.”
Synchrony Bank may be referred to as “we,” “us” or “our.”
Changes To This Agreement. We may change, add or delete terms of this Agreement, including interest rates, fees and charges.
Special Promotions. The terms of this Agreement apply to any special promotion. However, any special promotional terms that are different than the
terms in this Agreement will be explained on promotional advertising or other disclosures provided to you.
HOW TO USE YOUR ACCOUNT/CARD
Use Of Your Account. You may use your account only for lawful personal, family or household purposes. You may use your account for purchases from
providers that accept the card, as well as from any merchant that accepts Mastercard credit cards. You may get cash advances as further explained
below. You may not use your account to pay amounts you owe us on this account or any other accounts you have with us.
Cash Advances. We may offer you the opportunity to get a cash advance with convenience checks that we send you. We may not honor a convenience
check for any reason stated on the check. You can also get cash or make a withdrawal from any institution or ATM that accepts the card or the account.
In addition, we will treat any purchase of certain cash-like items as cash advances. Cash-like items include, for example, money orders, cashier’s checks,
traveler’s checks, electronic or wire transfers, foreign currency or other in-bank transactions, tax payments, lottery tickets or other legalized gambling
transactions, court costs, bail bonds and fines.
You Promise To Pay. You promise to pay us for all amounts owed to us under this Agreement.
Your Responsibility. Each accountholder will receive a card. You may not allow anyone else to use your account. If you do, or if you ask us to send a
card to someone else, you will be responsible for paying for all charges resulting from their transactions.
Transaction Limits. To prevent fraud, we may limit the number or dollar amount of any type of transactions you can make in any particular amount of
time. We also may decline any particular charge on your account for any reason.
Credit Limit. You will be assigned a credit limit and cash advance limit on your account that we may increase or decrease from time to time. If we
approve a transaction that makes you go over your credit limit or your cash advance limit, we do not give up any rights under this Agreement and we
do not treat it as an increase in either limit.
HOW AND WHEN TO MAKE PAYMENTS
When Payments Are Due. You must pay at least the total minimum payment due on your account by 5 p.m. (ET) on the due date of each billing cycle.
Payments received after 5 p.m. (ET) will be credited as of the next day. You may at any time pay, in whole or in part, the total unpaid balance without
any additional charge for prepayment. If you have a balance subject to interest, earlier payment may reduce the amount of interest you will pay. We may
delay making credit available on your account in the amount of your payment even though we will credit your payment when we receive it.
Payment Options. You can pay by mail or online. We may allow you to make payments over the phone but we will charge you a fee to make expedited
phone payments. Your payment must be made in U.S. dollars by physical or electronic check, money order or a similar instrument from a bank located
in the United States.
How To Make A Payment. You must follow the instructions for making payments provided on your billing statement. If you do not, credit of your
payment may be delayed up to five days. Your billing statement also explains how information on your check is used.
Payment Allocation. We will apply the required total minimum payment to balances on your account using any method we choose. Any payment you
make in excess of the required total minimum payment will be applied to higher APR balances before lower APR balances. Applicable law may require
or permit us to apply excess payments in a different manner in certain situations, such as when your account has a certain type of special promotion.
INFORMATION ABOUT YOU
Using And Sharing Your Information. When you applied for an account, you gave us, providers that accept the card and program sponsors information
about yourself that we could share with each other. Providers that accept the card and program sponsors (and their respective affiliates) will use the
information in connection with the credit program and for things like creating and updating their records and offering you special benefits. More information
about how we use and share information is set forth in the privacy policy for your account.
Address/Phone Change. You represent that any phone number that you provide to us belongs to you and/or that you are authorized to provide that
number. You also agree to tell us right away if you change your address or any phone number.
Consent To Communications. You consent to us, as well as any other owner or servicer of your account, contacting you through any channel of
communication and for any purpose, as permitted by applicable law. For informational, servicing, fraud, or collection related communications, you agree
that we may use the phone numbers that you provide to us to contact your cellular phone or wireless device with text messages, artificial or prerecorded
voice calls, and calls made by an automatic telephone dialing system. Text frequency may vary and may be recurring. This consent applies even if you
are charged for the call under your plan. You are responsible for any charges that may be billed to you by your communications carrier when we contact
you. Message and data rates may vary. We and any carrier are not liable for delayed or undelivered messages. If you have questions, please call the
number on the back of your card.
Telephone Monitoring. For quality control, you allow us to listen to and/or record telephone calls between you and us.

4

IMPORTANT INFORMATION ABOUT YOUR ACCOUNT
Closing Your Account. You may close your account at any time by sending a letter to the address shown on your billing statement or calling customer
service. We may close your account at any time, for any reason. If your account is closed, you must stop using it. You must still pay the full amount
you owe and this Agreement will remain in effect until you do.
Collection Costs. If we ask an attorney who is not our salaried employee to collect your account, we may charge you our collection costs. These
include court costs and reasonable attorneys’ fees.
Credit Bureau Reporting. We may report information about your account to credit bureaus. Late payments, missed payments, or other defaults on
your account may be shown in your credit report. Tell us if you think we reported wrong information about you to a credit bureau. Write to us at P.O.
Box 965036, Orlando, FL 32896-5036. Tell us what information is wrong and why you think it is wrong. If you have a copy of the credit report that
includes the wrong information, send us a copy.
Default. You are in default if you make a late payment, do not follow any other term of this Agreement or become bankrupt or insolvent. If you default
or upon your death, we may (a) request payment of the full amount due right away, (b) take legal action to collect the amounts owed, and/or (c) take
any other action allowed.
Disputed Amounts. The billing rights summary in section IV of this Agreement describes what to do if you think there is a mistake on your
bill. If you send us correspondence about a disputed amount or payment, you must send it to the address for billing inquiries. We do not
give up any rights under this Agreement if we accept a payment marked “payment in full” or given with any other conditions or limitations.
Unauthorized Use. If your card is lost, stolen or used without your consent, call us immediately at 1-866-748-1585. You will not be liable for unauthorized
use on your account, but you will be responsible for all use by anyone you give your card to or allow to use your account.
IMPORTANT INFORMATION ABOUT THIS AGREEMENT
Assignment. We may sell, assign or transfer any or all of our rights or duties under this Agreement or your account, including our rights to payments. We
do not have to give you prior notice of such action. You may not sell, assign or transfer any of your rights or duties under this Agreement or your account.
Enforceability. If any part of this Agreement is found to be void or unenforceable, all other parts of this Agreement will still apply.
Governing Law. Except as provided in the Resolving a Dispute with Arbitration section, this Agreement and your account are governed by federal law
and, to the extent state law applies, the laws of Utah without regard to its conflicts of law principles. This Agreement has been accepted by us in Utah.
Waiver. We may give up some of our rights under this Agreement. If we give up any of our rights in one situation, we do not give up the same right
in another situation.
RESOLVING A DISPUTE WITH ARBITRATION
PLEASE READ THIS SECTION CAREFULLY. IF YOU DO NOT REJECT IT, THIS SECTION WILL APPLY TO YOUR ACCOUNT, AND MOST
DISPUTES BETWEEN YOU AND US WILL BE SUBJECT TO INDIVIDUAL ARBITRATION. THIS MEANS THAT: (1) NEITHER A COURT NOR A
JURY WILL RESOLVE ANY SUCH DISPUTE; (2) YOU WILL NOT BE ABLE TO PARTICIPATE IN A CLASS ACTION OR SIMILAR PROCEEDING;
(3) LESS INFORMATION WILL BE AVAILABLE; AND (4) APPEAL RIGHTS WILL BE LIMITED.
1.

2.

3.

4.

5.
6.

7.

CLAIMS AND PARTIES. If either you or we make a demand for arbitration, you and we must arbitrate any dispute or claim between you
(including any other user of your account), and us (including our parents, affiliates, agents, employees, officers, and assignees) that directly
or indirectly arises from or relates to your account, your account Agreement or our relationship, except as noted below. In addition, dealers/
merchants/retailers and/or any assignee, agent, or service provider of ours that collects amounts due on your account are intended beneficiaries
of this Arbitration section and may enforce it in full (notwithstanding any state law to the contrary).
This Arbitration section broadly covers claims based upon contract, tort, consumer rights, fraud and other intentional torts, negligence,
constitution, statute, regulation, ordinance, common law and equity and claims for money damages and injunctive or declaratory relief, even if
they arose before this section took effect. You may not sell, assign or transfer a claim.
Examples of claims subject to arbitration are disputes about an account transaction, fees, charges or interest, the events leading up to the
Agreement (such as any disclosures, advertisements, promotions or oral or written statements, warranties or representations made by us), an
application for or denial of credit, any product or service provided by us or third parties in connection with the Agreement, credit reporting,
benefit programs related to your account including any reward program, the collection of amounts due by our assignees, service providers, or
agents and the manner of collection.
However, we will not require you to arbitrate any individual case in small claims court or your state’s equivalent court, so long as it remains an
individual case in that court. Also, even if all parties have opted to litigate a claim in court, you or we may elect arbitration with respect to any
claim made by a new party or any claim later asserted by a party in any related or unrelated lawsuit, including modifying an individual claim to
assert a class, representative or multi-party claim. Arbitration may be requested at any time, even where there is a pending lawsuit, unless a
trial has begun, or a final judgment entered.
Only a court will decide disputes about the validity, enforceability, coverage or scope of this Arbitration section or any part thereof. However, any
dispute that concerns the validity or enforceability of the Agreement as a whole is for the arbitrator to decide.
NO CLASS ACTIONS. IF EITHER YOU OR WE ELECT TO ARBITRATE A CLAIM, NEITHER YOU NOR WE WILL HAVE THE RIGHT (A) TO
PARTICIPATE IN A CLASS ACTION, PRIVATE ATTORNEY GENERAL ACTION OR OTHER REPRESENTATIVE ACTION IN COURT OR IN
ARBITRATION, EITHER AS A CLASS REPRESENTATIVE OR CLASS MEMBER, OR (B) TO JOIN OR CONSOLIDATE CLAIMS WITH CLAIMS OF
ANY OTHER PERSONS EXCEPT ACCOUNTHOLDERS ON YOUR ACCOUNT. THUS, YOU MAY NOT BRING CLAIMS AGAINST US ON BEHALF
OF ANY ACCOUNTHOLDER WHO IS NOT AN ACCOUNTHOLDER ON YOUR ACCOUNT, AND YOU AGREE THAT ONLY ACCOUNTHOLDERS
ON YOUR ACCOUNT MAY BE JOINED IN A SINGLE ARBITRATION WITH ANY CLAIM YOU HAVE.
PROCEDURES. The party who wants to arbitrate must notify the other party in writing. This notice can be given after the beginning of a lawsuit
or in papers filed in the lawsuit. Otherwise, your notice must be sent to Synchrony Bank, Legal Operation, P.O. Box 29110, Shawnee Mission, KS
66201-5320, ATTN: ARBITRATION DEMAND. The party seeking arbitration must select either the American Arbitration Association (AAA), 120
Broadway, Floor 21, New York, NY 10271, www.adr.org, or JAMS, 620 Eighth Avenue, 34th Floor, New York, NY 10018, www.jamsadr.com,
to administer the arbitration. If neither administrator can handle the dispute, a court with jurisdiction will appoint an arbitrator.

5

8.

9.

10.

11.

12.

13.

14.

The arbitration administrator will appoint the arbitrator and will tell the parties what to do next. The arbitrator must be a lawyer with at least
ten years of legal experience. The arbitrator must apply the same law, consistent with the Federal Arbitration Act (FAA), that would apply to an
individual action in court, but may use different procedural rules. The arbitrator will apply the same statutes of limitation and privileges that a
court would apply if the matter were pending in court.
The arbitrator may award any damages or other relief or remedies that would apply under applicable law to an individual action brought in court,
including, without limitation, punitive damages (governed by the Constitutional standards employed by the courts) and injunctive, equitable and
declaratory relief (but only in favor of the individual party seeking relief and only to the extent necessary to provide relief warranted by that party’s
individual claim). The parties will bear the fees and costs of their attorneys, witnesses and experts. However, the arbitrator will have the authority
to award fees and costs of attorneys, witnesses and experts to the extent permitted by the Agreement, the administrator’s rules or applicable law.
The arbitration will take place by phone or at a location reasonably convenient to you. If you ask, we will pay all the fees the administrator or
arbitrator charges if you cannot obtain a waiver of fees from the administrator and are acting in good faith. We will always pay arbitration costs
required by the administrator’s rules or that are necessary for this Arbitration section to be enforced.
GOVERNING LAW. This Arbitration section is governed by the FAA. Utah law shall apply to the extent state law is relevant under the FAA, unless
otherwise stated herein. The arbitrator’s award will be final and binding, except for any appeal right under the FAA. Any court with jurisdiction
may enter judgment upon the arbitrator’s award. The arbitration award and any judgment confirming it will apply only to the specific case and
cannot be used in any other case except to enforce the award.
SURVIVAL. This Arbitration section shall survive the repayment of all amounts owed, the termination, cancellation or suspension of the Agreement
or your account or credit privileges, any legal proceeding, and any bankruptcy by you, to the extent consistent with applicable bankruptcy law. If
this Arbitration section conflicts with the applicable arbitration rules or the other provisions of the Agreement, this Arbitration section shall govern.
SEVERABILITY. If any portion of this Arbitration section is held to be invalid or unenforceable, the remaining portions shall nevertheless remain
in force with the following two exceptions. First, if a determination is made that the “No Class Actions” provision is unenforceable, and that
determination is not reversed on appeal, then this Arbitration section shall be void in its entirety. Second, if a court determines that a public
injunctive relief claim may proceed notwithstanding the “No Class Actions” provision, and that determination is not reversed on appeal, then the
public injunctive relief claim will be decided by a court, and any individual claims will be arbitrated. The parties will ask the court to stay the public
injunctive relief claim until the other claims have been finally concluded.
HOW TO REJECT ARBITRATION. You may reject this Arbitration section. If you do that, a court will resolve any dispute or claim. To reject
this section, send us a notice within 45 days after you open your account or we first provided you with your right to reject this section. The
notice must include your name, address, account number, and personal signature, and must be mailed to Synchrony Bank, P.O. Box 965012,
Orlando, FL 32896-5012. This is the only way you can reject this section. Rejecting this Arbitration section will not affect any other provision of
the Agreement. It will also not affect any prior arbitration agreement or dispute resolution provision between you and us, which will remain in
full force and effect. If you don't reject this Arbitration section, it will be effective as of the date of the Agreement and will supersede any prior
arbitration agreement between you and us that would otherwise be applicable.

SECTION IV: OTHER IMPORTANT INFORMATION
CARECREDIT® REWARDS™ MASTERCARD® ACCOUNT AGREEMENT
This section of the agreement includes state notices, billing rights summary and rewards terms (if applicable) and is not required to be provided as part of the
credit card agreement posted online or provided to the CFPB.

FR833282333_CARECREDIT® REWARDS™ MASTERCARD®
TC DC PDF WF3501930C
6/2021
6

